<html>
<title> - HEARING ON THE RE-NOMINATION OF ALLISON MACFARLANE TO BE A MEMBER OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 113-709]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-709
 
 HEARING ON THE RE-NOMINATION OF ALLISON MACFARLANE TO BE A MEMBER OF 
                   THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
93-394 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001      
     
     
     
     
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     ROGER WICKER, Mississippi
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
JEFF MERKLEY, Oregon                 DEB FISCHER, Nebraska
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 23, 2013
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     2
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     7
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     8
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    10
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    10
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................   103
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New 
  York, prepared statement.......................................   103

                                WITNESS

Macfarlane, Hon. Allison, Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    15
    Prepared statement...........................................    17
    Responses to additional questions from Senator Lautenberg....    20
    Response to an additional question from Senator Cardin.......    23
    Responses to additional questions from:
        Senator Sanders..........................................    25
        Senator Vitter...........................................    28
        Senator Inhofe...........................................    65
        Senator Barrasso.........................................    67
        Senator Barrasso with Senator Fischer....................    68
        Senator Sessions.........................................    71
    Response to an additional question from:
        Senator Crapo............................................    88
        Senator Wicker...........................................    89
    Responses to additional questions from Senator Fischer.......    90
    
    


                    HEARING ON THE RE-NOMINATION OF 
 ALLISON MACFARLANE TO BE A MEMBER OF THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                         THURSDAY, MAY 23, 2013

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 9 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Vitter, Carper, Cardin, Sanders, 
Gillibrand, Inhofe, Sessions, Fischer, Barrasso, and Boozman.
    Senator Boxer. Good morning. There is a vote at 10:30 and 
we want to make sure everyone gets their questions.
    Before we start this, I wanted to respond publicly to the 
bill that has been agreed to by Senators Lautenberg and Vitter 
dealing with TSCA. I intend to handle it the same way I handle 
all of our other big bills which is everyone is going to have a 
chance to look at it, see how it impacts their State, see how 
it impacts their folks. But it is wonderful the two colleagues 
came together.
    So, we will get all of the copies of their legislation to 
every member of this Committee for your advice and then we will 
do a Chairman's mark based on everybody's input. I really want 
to say thank you. And I know is means so much to Senator 
Lautenberg to have a chance to have this. Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. Thanks for a fair 
and open process. That is all we ask for. We of course want 
this bill with a lot of bipartisan co-sponsors to be the base 
but we invite discussion, amendment discussion. We will go from 
there. And I think it is really, really exciting that so many 
folks from both sides have come together. This Committee often 
comes together on infrastructure issues.
    Senator Boxer. That is right.
    Senator Vitter. Here, we are coming together on an EPA-
related issue and doing something that is very important for 
health and safety and to make sure we continue to lead the 
world in innovation, a big part of our economy. So, we are very 
excited about it. Thank you.
    Senator Boxer. Well, that is excellent. I look forward to 
reading it. I have not. I have read remarks pro and con. But I 
am excited that you have gotten it to this point, Senator, and 
we will do what we do on every big bill. We will all work 
together because this Committee has to vote this up or down. So 
I want to make sure we get it out of this Committee. So, we 
will work together.
    With that, I want to call on Senator Cardin who is going to 
introduce our witness, make his statement, then he has a 
hearing to go to. So, I will call on him first.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you for the courtesy. I 
wanted to have the opportunity to reintroduce Dr. Macfarlane to 
our Committee.
    I believe when you were here last time Senator Blumenthal 
introduced you because your roots are in Connecticut. But you 
have shown the good sense to become a resident of Maryland, so 
I wanted to take this opportunity to welcome you back to the 
Committee and thank you very much for your public service. And 
we know this is a family commitment, your husband is here, and 
we thank your family for their understanding and your continued 
service to our Country.
    At your last hearing, there was a lot of discussion about 
the collegiality or lack of collegiality in regards to the 
Commission. Thank you for the leadership you have shown in 
restoring the type of collegiality that is critically important 
for the Commission.
    That is not just my view. The Nuclear Energy Institute CEO, 
Marvin Fertel, said ``Chairman Macfarlane has achieved notable 
progress in returning a climate of collegiality within the 
Commission.'' We certainly are pleased to see that type of 
progress.
    Dr. Macfarlane is an expert on nuclear waste issues, a 
critical issue since the industry lacks a permanent waste 
storage site. She holds a Doctorate in Geology from MIT and a 
Bachelor of Science Degree in Geology from the University of 
Rochester.
    Before Dr. Macfarlane became the Commission's 15th Chair, 
she was an Associate Professor in Environmental Science and 
Policy at George Mason University. From 2010 to 2012, she 
served on the Blue Ribbon Commission on America's Nuclear 
Future which President Obama established to make 
recommendations about a national strategy for dealing with the 
Nation's high level nuclear waste. Her research is focused on 
environmental policy and international security issues 
associated with nuclear energy, especially the back end of 
nuclear fuel cycle.
    During her academic career she held Fellowships at 
Radcliffe College, MIT and Stanford and Harvard Universities, 
and from 2003 to 2004 she was on the faculty of Georgia Tech on 
Earth Science and International Affairs. From 1998 to 2000, she 
was a Social Science Research Fellow and MacArthur Foundation 
Fellow in International Peace and Security. She also served on 
the National Academy of Science Panel on Nuclear Energy and 
Nuclear Weapons Issues.
    So, Madam Chair, as you can see, she brings to this 
position a wealth of experience, a wealth of academic 
background and is eminently qualified to serve as Chairman as 
she has.
    Madam Chair, I regret, as you pointed out, I will not be 
able to stay for the rest of the hearing, but I appreciate the 
opportunity of reintroducing Dr. Macfarlane and to commend her 
to the Committee. I believe she has both the requisite 
technical knowledge and management skills needed to lead the 
NRC.
    I thank the Chair for the courtesy to introduce her.
    Senator Boxer. Thank you.
    Senator Vitter, we will have you go next and I will follow 
you.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Great. Thank you, Madam Chair. I am very 
excited to have this hearing. It was originally planned for 4 
weeks ago but the Chair had questions that needed to be 
answered and I would be the last person who would object to 
that.
    [Laughter.]
    Senator Boxer. Let us just say I had four questions, not 
1,000.
    Senator Vitter. Four questions, 4 weeks, but they have been 
answered apparently.
    [Laughter.]
    Senator Boxer. Actually, they have not been answered at 
all.
    [Laughter.]
    Senator Boxer. And we are still doing it. Mark my words.
    Senator Vitter. Well, if you want to delay a set of things, 
we can discuss that possibility.
    [Laughter.]
    Senator Boxer. No, my questions have not been answered. We 
are having the hearing. So, let that be a sign.
    [Laughter.]
    Senator Vitter. The NRC plays an important role in 
promoting and maintaining the safety standards of nuclear 
reactors across the U.S. which makes the U.S. fleet the safest 
in the world. And Chairman, as Chair of the NRC you are 
entrusted with providing responsible stewardship of those 
nuclear reactor assets. That responsible stewardship not only 
includes promulgating and enforcing stringent safety standards 
but also ensuring that such regulations do not unnecessarily 
burden industry and consumer interests.
    So, our duty as members of this Committee is to confirm 
that any nominated leader is qualified and competent in this 
specific field and to ensure that the NRC pursues its goals in 
a responsible and efficient way.
    Nuclear energy has become an indispensable contributor to 
our base load electricity needs and will continue to be for 
years to come. Safety, of course, is the priority for members 
of this Committee as it is for members of your body.
    Since Fukushima, NRC has devoted significant amounts of 
resources into implementing its lessons learned and nobody 
would argue against those safety precautions. While the NRC has 
traditionally accomplished this through an objective approach, 
concerns have been brought to my attention in regards to 
possible or threatened departures from this method. And the 
departure is prevalent in the Commission's consideration of 
requiring filtered vents at some nuclear facilities.
    While I appreciate the Commission's decision to take a 
further look at the need for this requirement, I worry that in 
the light of Fukushima some new culture of hasty regulatory 
implementation may overtake the NRC's tradition of impartial 
regulation.
    After Three Mile Island many regulations were imposed that 
created heavy burdens at great cost which, after enforcement, 
were found to have no substantial impact on safety. This 
parallel was included as a cautionary comment in the NRC's own 
near-term task force report and it was noted by Commissioner 
Svinicki in her March 19 vote. This should especially be kept 
in mind as you continue to deal with issues surrounding SONGS. 
Any decision made on the issue should be based only on sound 
science and objective facts.
    And again, while safety is of the utmost importance, we 
must keep in mind the impact of unnecessary or burdensome 
regulations that have no safety impact.
    Again, thank you very much for being here today, Dr. 
Macfarlane, and I look forward to hearing from you on these 
important issues.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Dr. Macfarlane, today the Senate Environment 
and Public Works Committee meets to reconsider your nomination 
as Chairman of the NRC. I look forward to discussing your views 
on the role of the NRC and further ensuring the safety of 
nuclear reactors across the Country. That is the job of the 
NRC.
    I am very pleased to see in your testimony that you 
fostered a productive working relationship with other 
Commissioners during your time as Chairman, and I do believe 
the Commission is focused on its important safety and security 
mission.
    The most important work for the Commission is to meet its 
mission, to regulate the use of radioactive materials to 
protect public health and safety, promote the common defense 
and security, and protect the environment. That is your 
official role. That is spelled out in the NRC's Mission 
Statement. So, people might have a different view of the NRC, 
it is to promote nuclear power, not at all what the function 
and the role is as designed in the legislation that set up the 
NRC. It is all about safety, promoting the common defense and 
security, and protecting the environment. That is what it is.
    Your solemn responsibility is to ensure safety at the 
Nation's 104 commercial nuclear reactors and at the thousands 
of facilities that use radioactive materials. And I want to 
point out that if people have confidence in the safety, nuclear 
power will continue to move forward. If they lose confidence, 
that is the end. Because I know you can talk to the folks in 
Japan about how they reacted to what occurred there.
    The NRC's progress in implementing the post-Fukushima 
safety enhancements is a key indicator for the Commission's 
ability to successfully accomplish its mission. You have made 
some progress. But much work remains to be done to apply the 
lessons of this nuclear disaster. The Commission must not waver 
in its commitment to promptly implement all the needed safety 
improvements and I will call hearings to look at your progress.
    As I think about the importance of fully addressing the 
post-Fukushima recommendations, the safety of the 8 million 
people who live within 50 miles of the San Onofre Nuclear Power 
Station in California is constantly in the forefront of my 
mind.
    I am deeply concerned by the problems that plague this 
damaged facility. This nuclear plant is located in a seismic 
zone and, as if that was not enough, in a tsunami zone. And we 
all know that if there was no nuclear power plant there and 
someone came in and said I want a license for this, to put the 
nuclear plant right here, right in a seismic and tsunami zone, 
we all know every single Commissioner would say, don't think 
you could find a better place for it?
    Now, in January 2012, a leak of radioactive material led to 
discovery of unexpected deterioration of the tubes in the 
plant's new steam generators. The plant has been shut down ever 
since. The NRC's investigation into the cause of this serious 
damage must be thorough and it must involve the public.
    Eight million people live there, within 50 miles. The 
thought of families in the U.S. facing an accident such as the 
type of accident the people of Japan faced or in Fukushima 
makes me have sleepless nights and should make us all much more 
vigilant.
    So, the American people have a right to expect the best of 
the people serving in these critical positions. And I know that 
you come to us with great credentials, you have a good working 
relationship, which is very important as far as the Commission 
is concerned.
    But for me, what I want to see and what I want to hear is 
that this dedication to safety is something you hold near and 
dear.
    Thank you very much. And we will call on Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    Let me make one comment about the disaster in Oklahoma that 
was brought up by Dr. Macfarlane and you as well as Ben Cardin 
and others. It is an indescribable thing unless you have been 
there and have seen it.
    The irony is, in this case, 14 years ago at the same time I 
was there when the same tornado tracked the same area and hit 
the same ground, the same. And you look and you see that some 
of that was not even totally rebuilt after 14 long years. So, I 
heard someone say, over there, that the problem 3 days ago when 
I was there, 2 days ago, was to try to match the missing 
parents with the missing kids.
    And I appreciate all of the comments that we have gotten.
    Chairwoman Macfarlane, I appreciate your appearing before 
us today. First, I want to thank you for restoring the 
congeniality. This is something I felt very strongly about. I 
know it gets a little bit controversial but your predecessor 
did not do as good a job as you are doing, in my opinion, in 
terms of dealing with your people. And having the congeniality 
is necessary in any bureaucracy.
    One of the most exciting developments over the past few 
years has been the tremendous expansion of oil and gas 
drilling. Where many believed that we would become a major 
natural gas exporter at the time, all that is said and it looks 
like we are going to be able to become, or rather an importer, 
gas exporters. So, that is very important. And it is important 
to look at the overall energy as we approach the, becoming 
independent in this Nation.
    When I talk about energy independence, I am not just 
talking about oil and gas production. Nuclear energy is, 
without question, one of the most important assets. And if the 
United States pursues a lackluster nuclear policy, then it may 
be impossible for us to achieve this important bipartisan goal.
    Unfortunately, the future of American nuclear energy is 
facing many of the same hurdles as the oil and gas industry and 
one of the key threats is overregulation by the Government. As 
with oil and gas producers, we are facing major regulatory 
hurdles to mine uranium and other feed stocks. Many Federal 
lands have been ruled off limits by the current Administration 
despite a long-proven track record of extracting the minerals 
in an environmentally safe way.
    And as we are all well aware, there have also been major 
hurdles to establish a long-term depository for nuclear waste.
    Some of the threats to the industry also come from the 
Commission. And this has occurred most recently in the 
aftermath of the Fukushima event. While several emergency 
orders were awarded and justifiable, such as addressing issues 
like extreme natural events and the measuring of seismic risks, 
others were not.
    My main concern stems from the attempt to use the emergency 
orders to impose a costly filtered vents requirement without 
adequate consideration of the cost benefits, appropriate risks 
or differences in the United States and the Japanese regulatory 
practices which are quite different.
    These actions and several of the statements that you made 
to justify your decisions make me wonder whether you are 
approaching the job with a bias that the industry is unsafe and 
that regular accidents are inevitable despite the industry's 
remarkable track record over the past 40 years.
    The NRC has many important responsibilities that, if 
handled correctly, will actually accelerate our ability to 
achieve and maintain energy independence. The NRC has a 
tremendous historical record of working well with industry and 
balancing the needs of public safety and a workable regulatory 
environment. If you are confirmed, it is my hope that you will 
continue to ensure the nuclear energy industry remains vibrant 
in the United States for many generations.
    Again, thank you for being here today. I would like to ask 
you some questions about your vote on filtered vents, the issue 
of being based on the prospective of Greenpeace and whether you 
will respect the court's final decision on Yucca Mountain. But 
I may have to leave early because, as is always the case with 
this Committee, we have that conflict on every hearing.
    So, what I would like to do is ask those two questions for 
the record in the event I am not here when we ask questions to 
you.
    Thank you very much.
    Senator Boxer. OK. Senator Carper. Oh, wait, did Senator 
Sanders come before? I cannot remember.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I would be happy to yield to the gentleman 
from Vermont.
    Thanks so much for holding this hearing, Madam Chairman. I 
know you have concerns that you have expressed before and 
today. I just urge the Chair of the NRC to be as responsive as 
you can be to those concerns. I know you will be.
    I will just be brief, really brief.
    We went through a tough patch on the Nuclear Regulatory 
Commission. You provide new leadership and by all accounts you 
provide very, very good leadership, restoring collegiality, a 
sense of cohesion and respect, respect not just from your 
colleagues but from the employees at the NRC and from the many 
stakeholders.
    You do not have an easy job. It is a challenging job. It is 
hard to please everybody all the time. And I think if you will 
just continue to do what you think is right, work hard, provide 
the kind of leadership that you are doing, the NRC will be fine 
and we will be as a Country.
    We are counting on you. We are counting on your colleagues. 
The work that you do is important for our Nation in many 
respects for providing energy and for helping to clean our air. 
And for that, we thank you.
    Senator Boxer. Are you finished?
    Senator Carper. Yes.
    Senator Boxer. OK. Senator Sessions followed by Senators 
Sanders, Fischer, and Barrasso.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Congratulations, Ms. Macfarlane. The 
President has again found confidence in you and nominated you 
and his nomination deserves respect. There is no doubt you 
entered into the office in a tumultuous period and I believe 
you have done a good job of bringing that group together.
    I hear good reports and we have not seen the kind of 
unhealthy internal disputes that we saw before. I guess maybe 
Senator Carper's always good advice is the rule of do unto 
others and he is a big fan of yours. But I think you have done 
that.
    At your confirmation hearing last year, it was unique. I 
noted your background is not the kind of background I would 
normally look for in a chairman. And that could cause a 
situation in which decisions get made more on a political basis 
rather than a technical basis. I hope you will guard against 
that.
    I have looked at your record. I would note that your vote 
on filtered vents suggests that you are willing to impose 
costly new mandates without allowing the public the liberty of 
the rulemaking process. The other Commissioners disagreed with 
your view on that, all of them did. Public notice and comment 
is a critical component of good governance at any agency, but 
especially the NRC, which has to deal with such highly complex 
and technical issues.
    Even the NRC's principles of good regulation are designed 
to ``focus the NRC on ensuring safety and security while 
appropriately balancing the interests of the NRC stakeholders 
including public licensees.'' That is why openness is an 
important issue and principle. The anti-nuclear people believe 
in openness, they are entitled to it, and those who are for 
nuclear power need to have that, too.
    So, it would be a concern to me that if you were too 
willing to reach firm conclusions without a full and open 
process, as Commissioner Apostolakis wrote in this vote: 
``Vibrant debate continues to take place on this filtered vent 
issue and there remain technical questions to be resolved. 
Pursuing such requirements through the rulemaking process will 
give all stakeholders the opportunity to discuss these 
issues.'' The issuance of orders without rulemaking constrains 
the extent of stakeholder interaction.
    Second, you indicate a willingness to use more subjective 
qualitative factors when the history of the agency and its 
practice is to be more focused on objective quantitative 
factors. In other words, you seem willing to approve new 
mandates like filtered vents even when that option is not 
supported by robust numbers-driven cost benefit analysis as the 
rulemaking process requires.
    Commissioner Magwood correctly described, I believe, your 
use of qualitative factors as an ``extraordinary step'' that he 
notes ``goes well beyond previous guidance.'' So, I think that 
is a dangerous process and it allows more emotional and 
political influences if you do not do it on the record on a 
fact basis.
    NRC guidance on cost benefit analysis in fact states that 
qualitative analysis, the kind of analysis that you relied on 
in this instance, should only be used as a ``last resort.'' As 
Commissioner Magwood explained in his vote, your approach could 
be used to ``justify essentially any regulatory change.'' So 
this would undermine the regulatory certainty that I think we 
need.
    And finally, you have done a good job in leading the 
Commission. I appreciate that. But we will be, I think it is 
important as you go into your second term, full term I guess, 
that you adhere to these fundamental principles and that is 
important to me.
    Madam Chairman, I have a couple of questions that I would 
just mention and I may not be able to return. I would note that 
I will be asking you about the principles of independence and 
your willingness to resist groups and pressures from Congress 
and other places to reach an independent decision as I believe 
you are sworn to do and as you have testified. And, that you 
would be, understand that your vote, absent a real emergency, 
we had a problem with Mr. Jaczko on this, your vote is equal to 
only the others. Your power, other than administrative power, 
leadership power, has no more impact than the others, and the 
entire board needs to be engaged in these issues.
    Thank you, Madam Chairman.
    Senator Boxer. And I am going to piggyback on that and ask 
not only should you be independent from all of these groups, 
but from the nuclear industry. So, I will ask my question, so 
you will have a chance to answer his and mine.
    We are going to go to Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair.
    Ms. Macfarlane, it is no secret that for decades the NRC 
was kind of perceived by the public as a tool, if you like, of 
the industry, a very, very powerful industry. And I happen to 
think that Mr. Jaczko did a good job. I suspect that his major 
problem was that he was independent of the industry and some 
other Members did not like him.
    So, in terms of the independence that Senator Sessions 
raised, I hope, also, that you will be independent but 
independent of one of the most powerful industries in this 
Country. And, as the Chairwoman mentioned a moment ago, your 
job is an enormously important one. But it is not the promotion 
of nuclear power, which many people now believe is a very 
expensive way to generate new electricity, but the safety of 
the American people.
    I want to simply add that when we discuss nuclear power and 
energy in general, many of my friends talk about the Government 
not picking winners and losers. And I hope everybody here 
understands that without the Federal Government's heavy 
support, heavy subsidization of the nuclear power industry, 
there would be no nuclear power.
    So, when some of us argue that we have to move in order to 
deal with global warming away from fossil fuels to sustainable 
energy and to energy efficiency, we need Government support 
because, oh no, we do not want Government support, understand 
that the nuclear power industry would be dead tomorrow without 
legislation like Price-Anderson.
    Very few people understand that if, God forbid, there is a 
major nuclear disaster in this Country, you know who picks up 
the bill? It will be the taxpayers of this Country. And when 
you say well, why don't you go to Wall Street to get the help, 
it is because Wall Street thinks it is too risky an investment.
    But, my question for you, and I also am going to have to 
leave and I will put it in writing and would very much 
appreciate hearing from you, and we did discuss this on several 
occasions, in Vermont, this is our concern. We have an aging 
nuclear reactor called Vermont Yankee that has had a number of 
problems over the years. Our legislature has voted not to renew 
its license, wants to shut it down. They are in court right now 
arguing about this.
    There is good reason to believe that either for political 
reasons Vermont would prevail and shut it down or for economic 
reasons, an old plant is not worth Entergy maintaining, the 
plant will be shut down.
    What the people of Vermont are concerned about is that 
Entergy, which owns the plant, has suggested that they may want 
to go into a SAFSTOR process which means you are going to have 
a plant there for 30, 40 or 50 years, a rotting hulk in the 
southern part of the State of Vermont, rather than 
decommissioning, moving quickly in a few years, putting people 
to work tearing apart that plant in a safe way.
    So, what I will ask you in writing and very much want to 
hear from you as definitively as we can is, my understanding is 
that all over the world and in this Country when nuclear plants 
are shut down, they are decommissioned, in a few years they are 
gone and the waste is safely disposed of, or as safely as it 
might be.
    So, I would like to ask your help in making sure that 
plants in the Country, it is Vermont Yankee now but there are 
other plants a few years down the line who are going to be in 
exactly the same position, that when a nuclear plant is shut 
down, communities do not have to keep a rotting hulk there for 
30, 40 or 50 years.
    So, that would be my question, and I thank you very much 
for being here.
    Senator Boxer. Thank you.
    Senator Fischer followed by Senator Barrasso.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Madam Chairman, and thank you, 
Ranking Member Vitter, for holding today's hearing.
    Welcome Dr. Macfarlane. I appreciate your willingness to 
continue to serve the people of this Country.
    Nebraska is unique and we are very proud of the way we do 
things. Nebraska has the distinction of being the only State in 
the Country where every single home and every single business 
receives electric service from publicly owned power, publicly 
owned utilities.
    Our public power system exists to serve customers, to 
deliver affordable and reliable electricity. In Nebraska, 
electricity costs are well below the national average, thanks 
in part to our nuclear energy. Nebraska normally receives more 
than 25 percent of its electricity from its two nuclear power 
plants. Our citizens appreciate access to this clean and 
affordable energy source.
    The Nuclear Regulatory Commission plays an important role 
in ensuring the safety and the security of our nuclear power 
and inspiring public trust and confidence that we have in our 
system. As the NRC does its work, it is critical that the 
Commission adheres to its principles of good regulation, 
independence, openness, efficiency, clarity and reliability.
    Now more than ever, we need an agency that will put these 
principles into practice. From the implementation of new safety 
enhancements to the review and approval to licensing requests, 
there is much at stake for the nuclear industry here in the 
United States.
    Dr. Macfarlane, I look forward to continuing our discussion 
on these important issues and again, I offer my thanks for your 
service.
    Senator Boxer. Thank you, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. 
Welcome back to the Committee. I am happy to see you.
    Since I came to the Senate, I have worked closely with my 
colleagues to ensure that nuclear energy can continue to be a 
vital part of America's energy mix. Nuclear energy is essential 
if we are going to make American energy as clean as we can, as 
fast as we can, without raising costs for families and 
businesses.
    Over the last 4 years, we have witnessed a competing vision 
of American energy, a vision that says Washington will pick 
costly and unreliable energy alternatives because, of course, 
Washington believes it knows best. The Washington vision is a 
vision that says nuclear energy must take a back seat to other 
forms of energy, despite the industry's proven track record of 
reliability and affordability.
    Over the last 4 years, Congress and the executive branch 
have debated the lessons of Fukushima, the storage of nuclear 
management and the management of the Nuclear Regulatory 
Commission. Fukushima was a major event. And it is not just for 
its impact on Japan, but also for implications here in the 
United States. As with any major event involving nuclear power, 
there are immediate calls for new regulations, especially from 
those who have long campaigned again nuclear energy.
    As we consider this nomination, I believe we need a nominee 
who would proceed cautiously on these proposals. On February 
4th of this year I, along with other Republican members of this 
Committee, sent a letter to the nominee. In that letter, we 
asked that she take a prudent and thoughtful approach to 
evaluating the lessons of Fukushima and, where necessary, 
conduct a cost benefit analysis.
    We also expressed concerns that the NRC is moving forward 
with implementation of costly post-Fukushima recommendations 
beyond those identified as Tier 1 without fully analyzing the 
differences between the regulatory and safety cultures of Japan 
and the United States.
    There are significant differences between the regulatory 
and safety cultures in Japan and the United States. The nuclear 
industry and the regulatory agencies in the U.S. have an 
excellent track record of safety. I am concerned with the 
amount of resources being dedicated to addressing new 
regulations related to Fukushima, that there is a possibility 
that the NRC will fail to address potential safety issues that 
exist at our plants today. We cannot allow that happen.
    We need a nominee who will take a thoughtful approach to 
addressing these issues and we need a nominee that will 
recognize that the regulations beyond Tier 1 can be costly to 
the industry and yield in terms of actual safety benefits.
    I will say to the nominee that your tenure has brought 
significant change to the NRC. I believe that collegiality has 
returned to the NRC under your leadership and I want to thank 
you for that. I hope that collegiality will be applied to 
addressing other issues such as the storage of nuclear waste.
    The nominee served on the Blue Ribbon Commission that made 
a series of recommendations for the storage of nuclear waste. 
Now, I have long been a supporter of Yucca Mountain and I 
continue to believe that the project should move forward. There 
are some who have doubted that long-term or interim storage can 
work. I disagree with them. The recommendations by the Blue 
Ribbon Commission to transport waste to interim sites could 
give the industry the opportunity to demonstrate that working 
with DOE and the NRC it can build and supply and safely supply 
a long-term storage site in the future.
    We need a nominee that recognizes that those who oppose the 
use of nuclear energy would like nothing more than to have the 
industry choke on its own waste, get weighed down by regulatory 
burdens or bow to political pressures to the point that the 
industry is no longer viable.
    I realize that the role of the NRC Chairman is not to be a 
cheerleader for the industry. I also believe any nominee should 
not have an agenda either to drive this reliable, affordable 
energy source out of our Country's energy portfolio.
    With that, I look forward to the questions and raising 
these and other important issues to my State with the nominee 
today.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Well, you know, this issue, it is great that you are 
collegial. But I just want to stress that we are very 
collegial, we do not agree on every single thing. It is OK. So, 
there is a difference between being collegial and being rubber-
stamping, everybody looking the same way and walking out in the 
same, the same thing.
    We need people on the Commission right, left, center, pro-
nuclear or nervous about it, looking at it however they look at 
it, to say what they think, or we are not served well.
    I want to make a point. I want to put into the record, 
without objection, do not start the questioning now, we have to 
do this, a letter than I sent to you along with Senator Wyden 
about Fukushima and I felt that, and not only that, we had a 
whole slew of people who signed on to this letter, making the 
point, and Senator Barrasso, I think this is critical, 31 of 
our nuclear plants are identical to the one that had problems 
in Fukushima.
    So, of course there are other problems we have to look at. 
But we should not reinvent the wheel. If we are the same design 
31 times, I think we can learn, you know, from that. So, let us 
agree with you that let us not obsess over it, but since there 
are 31 plants, those plants should not make the same mistake as 
plants that we had in Fukushima and all of the horrible 
problems there and the people turning against nuclear. That 
does not really help the nuclear industry.
    And the other point I make about Yucca Mountain, I mean, 
this is still a fight, right? I thought it was over but 
obviously it is still there. I want to make a point for my 
people in California who, if there is a leak, and it shows that 
there were leaks when they had the tests, that there would be 
leakage to our underground water supply and Republican members 
of boards of supervisors all over that area of my State, which 
is a pretty wet part of my State, said no way, no how.
    So, again, I feel bad that you have to deal with these 
difficult issues every day. It is, we know what that is like 
here. But there are very different views on it.
    Now, I will not take my 5 minutes. I know you want to do a 
statement but I want to make one point. In your statement, 
which you are doing now, if you can just answer the questions 
that you know I want to hear about, San Onofre, then I will not 
have to ask you those questions later.
    Go ahead.
    [The referenced letter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    STATEMENT OF ALLISON MACFARLANE, CHAIRMAN, U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Macfarlane. Thank you. Chairman Boxer, Ranking Member 
Vitter, Chairman Carper, Ranking Member Sessions and members of 
the Committee, I appreciate the opportunity to appear before 
you today. I am honored that the President has nominated me to 
continue my service on the Nuclear Regulatory Commission. I 
also want to thank my husband, Hugh Gusterson, for his constant 
support and for being here with me this morning.
    Before I begin, I would like to take a moment to extend my 
deepest sympathies to the people of Oklahoma as they recover 
from the enormous tragedy that they have just suffered. We have 
been in close contact with our Agreement Statement Partners in 
Oklahoma and they have verified that all licensed nuclear 
materials that were in the vicinity of the tornado are now 
secure.
    Last June, I committed to you that I would foster a 
collegial, productive working environment at the NRC. The NRC 
faced challenges and I committed to meet them. From the first 
day, I made it my practice to meet regularly with my fellow 
Commissioners to hear and understand their views and establish 
collegial relationships with each of them. I value their 
expertise and perspectives and I believe that we have 
alleviated the challenges and are now focused on the important 
safety and security mission at the NRC.
    I have been privileged to get to know the NRC staff and 
have benefited greatly from their guidance. I have visited each 
of the NRC's four regional offices, our training center in 
Tennessee and a number of our licensed facilities including the 
Diablo Canyon, Indian Point and San Onofre nuclear power 
plants. I will travel to the Vogtle construction site in a 
couple of weeks and see the construction there.
    I have been impressed by our resident inspectors and the 
talented men and women of the NRC who are dedicated to ensuring 
that our licensed facilities operate at a consistently high 
level of safety, that nuclear materials are protected from 
those with malicious intent and that the public has confidence 
in our work.
    During my tenure, the NRC staff has continued its excellent 
work. Our most recent plant performance data demonstrates that 
the majority of plants are performing well. We continue to 
implement post-Fukushima safety enhancements to protect further 
our licensed facilities against severe accidents. The staff is 
working to address Waste Confidence in a timely and 
comprehensive manner.
    The NRC remains committed to ensuring the safe construction 
of new nuclear facilities without undue delays. When our staff 
identified potential problems at the Vogtle and Summer plants, 
the NRC expedited its comprehensive review of license 
amendments in addressing these issues to enable the sites to 
safely move forward with construction.
    I have also ensured that we are prepared to process new 
reactor license applications, including those for small modular 
reactor technology.
    Under my leadership, the NRC has navigated a number of 
internal challenges. I am proud that our agency has been able 
to address sequestration without furloughs. I am also managing 
extensive succession planning among the agency's senior 
management including the replacement of our retiring Executive 
Director of Operations.
    Further, I have ensured that the NRC is taking the 
necessary steps to reduce its office space footprint and make 
more efficient use of our space in close cooperation with the 
General Services Administration. And finally, I have been a 
strong proponent of effective engagement with the public and 
plain language communication.
    I have also assumed several important international 
leadership roles in activities that directly benefit the NRC's 
domestic mission. I led the U.S. delegation to a major nuclear 
safety conference in Japan late last year and in January I 
became Chair of the Multinational Design Evaluation Program, a 
collaborative international program that focuses on new reactor 
designs and will give important input to our own construction 
oversight.
    If confirmed, I will remain committed to openness, 
transparency, fairness and efficiency in the NRC's processes. I 
will continue to seek views from a broad range of parties 
affected by our work and ensure those views inform the agency's 
actions.
    I will oversee timely implementation of continued post-
Fukushima safety enhancements while ensuring that this work 
does not distract the staff from other important safety and 
security priorities. I will endeavor to more fully integrate 
our consideration of the entire fuel cycle and I will also work 
to ensure that the starting point for all agency decisions is 
rigorous scientific analysis.
    I have been honored to serve as Chairman of the Nuclear 
Regulatory Commission for the past 10 months. The NRC has 
accomplished a tremendous amount in that short time and my 
leadership has promoted the openness and collegiality necessary 
for us to focus on our priorities. There are a number of 
challenges ahead but I believe we are on a good course.
    If confirmed, I enthusiastically look forward to continuing 
to lead the talented staff of the Nuclear Regulatory Commission 
through what promises to be a dynamic and rewarding 5 years.
    I greatly appreciate the opportunity to appear before you 
today and I would be pleased to answer your questions.
    [The prepared statement of Ms. Macfarlane follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
    
    Senator Boxer. Thank you.
    I want to talk to you about San Onofre which is a cause of 
great alarm for a lot of people there and even the group, the 
judges, the Administrative Law Judges, that you, the NRC, all 
of you, asked to comment on whether there needs to be a public 
hearing about what is going on there before the plant is 
opened.
    So, there is seriousness here. And the population in just 
San Diego County and since the original plant was approved has 
increased by more than 300 percent. And so again, we have 8 
million people there and when I asked the sheriff, the county 
sheriff, what would the evacuation look like if there was a 
problem, she pointed to the road and said that is the 
evacuation plan. And anyone who knows California roads knows 
that it is always crowded there and God forbid in case of any 
kind of emergency what would happen.
    So, as the population near the plant has dramatically 
expanded, we have learned more and more about the threats of 
operating nuclear reactors there. We better understand the full 
extent of the seismic risk because there was a new report done 
several years ago that discovered another fault. We know the 
plant is located in a tsunami zone. This thing is really 
disturbing. And we know after Fukushima the devastating impact 
these two forces of nature can have on nuclear power plants. 
So, you put it all together and to me it says one word, danger.
    Now, I was very pleased that you and every one of your 
colleagues on the Commission assured me at our last oversight 
hearing that you will not let this plant start up unless you 
are absolutely convinced it is safe to operate. I asked each 
one of you then, will you let this plant start up if you are 
not absolutely convinced it is safe to operate. Everyone said 
they were with me, they would not allow it to open.
    Now, in an October letter to me, you reaffirmed, this is 
your words, reaffirmed the Commission's commitment that the 
agency will not allow a restart at San Onofre until the 
investigation is completed and the facility is safe to operate.
    Now, I want all of the investigations to be completed 
before the plant is restarted. And it is very important that 
the Commission not back pedal on this.
    Southern California Edison, who runs this plant, wants to 
rush to restart. We have seen documents over the last several 
months that reveal that SoCal Edison is trying to get approval 
to restart without ensuring that the problems are fixed.
    They have actually asked to operate the plant before the 
investigation is completed at 70 percent of power. And they 
said something like this, I am paraphrasing, we will start it 
at 70 percent and we will see what happens. We will see how it 
goes. That is like saying I think I fixed the damaged brakes on 
your car but do not drive it over 40 miles per hour. Do 
whatever when you get in the car.
    And as I said, three Administrative Law Judges just 
recently on the Atomic Safety and Licensing Board who were 
chosen by your Commission and who are distinguished experts in 
nuclear safety found Southern California's proposal to startup 
at 70 percent was ``an experiment.''
    Well, maybe there are some people here would like to 
experiment on my people. But I am not going to let it happen. 
Let us be clear. And this group, this Atomic Safety and 
Licensing Board, which is selected by the NRC, also ruled that 
the public should be provided with a meaningful hearing 
opportunity before the NRC makes a restart decision.
    So we have talked about this a lot. You know of my concern 
for the 8 million who live within 50 miles of the plant. So, do 
you agree that the NRC's Atomic Safety and Licensing Board 
ruled that the San Onofre Restart Plan should be considered a 
license amendment that gives the public an opportunity for a 
hearing? I am not asking whether you agree with them. I am 
asking, do you agree that they ruled that the Restart Plan 
should be considered a license amendment that gives the public 
an opportunity for a hearing?
    Ms. Macfarlane. Yes, I agree.
    Senator Boxer. NRC's Office of Investigations is currently 
looking into whether SoCal Edison provided the Commission with 
complete and accurate information. So, do you believe that the 
investigation should be completed by your Office of 
Investigation on this issue before any decision is made to 
restart?
    Ms. Macfarlane. Senator, it is my personal belief that the 
technical staff should have all the conclusions from the Office 
of Investigation investigation available to them prior to any 
restart decision. And my understanding, currently, is that 
based on what we know today, that these two, the restart 
decision and the Office of Investigation investigation, will 
conclude around the same time.
    Nonetheless, if the Office of Investigation investigation 
is not complete when the technical staff is ready to make a 
restart decision, the technical staff will, following their 
procedures, talk to the Office of Investigation's staff and ask 
are there any significant safety issues that should affect our 
restart decision.
    That said, the technical evaluation and the Office of 
Investigation investigation are two separate processes and it 
is very important that the agency maintain the integrity of 
these processes.
    Senator Boxer. Well, I do not say that the, I agree that 
there should be integrity. I do not agree under any 
circumstances that there ought to be a restart until the entire 
investigation is complete. So, we have a bit of a difference.
    But let me just say here, lawsuit. There is no way, at all, 
that any judge, in my view, reading the NRC's Atomic Safety and 
Licensing Board ruling that calls all of this an experiment, is 
going to allow this to go.
    So, just let me tell you this. I respect what you said. I 
do not agree with what you said. An investigation is an 
investigation. If it has subpart a, b, c and d, they have to be 
completed because it is very important, if we find, let us just 
say, the SoCal Edison was not honest in what they said to the 
Commission but you allow them to restart until you really know, 
it is a problem. So, we disagree on that.
    Now, NRC is also investigating allegations of willful 
wrongdoing, willful wrongdoing, at San Onofre. Do you believe 
the results of investigations into potential criminal conduct 
are relevant to SoCal Edison's credibility to build and operate 
nuclear reactors?
    Ms. Macfarlane. Again, I would, just as I have done, said 
yes, it is my personal belief that these investigations, in an 
ideal world, would be complete and inform, be available to 
inform the technical staff's restart decision prior to that 
restart decision.
    Senator Boxer. OK. Well, I just do not agree with what you 
are saying because the bottom line is they have to finish this 
up, not that they are relevant, it goes to the heart of letting 
this outfit open up San Onofre.
    So, let the record show I do not agree with you. To me, it 
is pretty simple. All the parts of the investigation have to be 
complete, the criminal part, the part that deals with complete 
and accurate information and the rest of it, and what you call 
the technical part, whether or not they can open up at 70 
percent without a new license.
    So, we do have disagreements here. I do appreciate your 
willingness to discuss these with me. I do appreciate the fact 
that you are telling me the way you feel. And let that be a 
lesson to some of my colleagues with other nominees. I do not 
agree with you. But I think that you are a good leader of this 
Commission. But I do not agree with you, on the way you are 
handling this, to be honest.
    The last question I have is, I am going to ask you for some 
documents. They are in the public, they have to be in the 
public domain. And I am going to ask you about some 
communications that went back and forth. Would you wait until 
after this hearing is over so I can tell you which documents I 
want, then I will put it in writing, you and your staff?
    Ms. Macfarlane. Sure.
    Senator Boxer. Thank you. Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    Chairman Macfarlane, I am not a nuclear scientist. I am not 
a safety expert. I am not going to try to go to the substance 
of San Onofre----
    Senator Boxer. San Onofre.
    Senator Vitter. San Onofre.
    [Laughter.]
    Senator Boxer. It is Lake Pontchartrain and San Onofre.
    Senator Vitter. OK.
    [Laughter.]
    Senator Vitter. I am not going to try to go to the 
substance of those scientific issues. I do want to ask you 
about the process and how it should be guided by the science 
and by the experts. You made remarks relevant to this on March 
20 of this year at a U.S.-Japan roundtable where you described 
what you believe is required for a regulatory body to be 
effective.
    Specifically, you stated ``To be effective, a regulatory 
body must be independent from economic, policy and political 
interests. Its decision must not be subject to undue influence 
that can compromise safety.'' Do those remarks adequately 
represent your opinion on how the NRC should operate?
    Ms. Macfarlane. Yes, absolutely.
    Senator Vitter. And will you commit today to upholding this 
principle, even when faced with outside political pressures?
    Ms. Macfarlane. Yes, absolutely.
    Senator Vitter. Great.
    Madam Chairman, on Yucca Mountain, we have been struggling 
with some agencies' failure to conduct their work in an open 
and transparent manner. And that is why I ask, if reconfirmed 
as Chairman, will you commit to conduct the Commission's 
business in a completely and transparent manner including such 
things as the agency's conclusions resulting from safety 
analyses?
    Ms. Macfarlane. If confirmed, I will conduct the agency's 
processes in an open and transparent manner. Absolutely.
    Senator Vitter. Right. And does that commitment to 
transparency extend to the release of the NRC's conclusions 
regarding the Yucca Mountain Safety Analysis Report?
    Ms. Macfarlane. We are awaiting the court's decision on the 
Yucca Mountain case and the NRC will follow the law.
    Senator Vitter. OK. So, specifically, if the court requires 
the NRC to resume the license review, will you honor that court 
decision?
    Ms. Macfarlane. We will follow the law. We are very aware 
of the importance of this court decision, not only to the NRC, 
to the public, but to the Nation as a whole. Before making any 
final decisions, of course, I have to consult my fellow 
Commissioners. We are a collegial body of five and at this 
point in time I do not want to prejudge any decisions until I 
have seen the court decision.
    Senator Vitter. But the court decision would represent the 
law and you would follow it?
    Ms. Macfarlane. We would follow the law.
    Senator Vitter. OK. And going back to the Yucca Mountain 
Safety Analysis Report, if there is nothing in the court 
decision that prohibits that release of the NRC's conclusions, 
will you release those conclusions?
    Ms. Macfarlane. We will follow the law. Yes.
    Senator Vitter. Well, I am not sure exactly what that 
means. If the law does not prohibit the release of those 
conclusions, will you release them in the spirit of 
transparency?
    Ms. Macfarlane. Again, Senator, with all due respect, I 
will need to see the court's decision, I will need to discuss 
it with my fellow Commissioners, and at this point in time I do 
not want to prejudge anything about the court's decision until 
we have it in hand.
    Senator Vitter. OK, that is fine. Again, to be clear, all I 
am asking is if there is nothing in the court decision that 
prohibits that, I would specifically request that and urge 
that.
    Ms. Macfarlane. Thank you.
    Senator Vitter. OK, that is all I have, Madam Chairman. 
Thank you.
    Senator Boxer. Thank you, Senator Vitter. Senator Carper.
    Senator Carper. Is that your husband sitting right behind 
you?
    Ms. Macfarlane. It is. Yes.
    Senator Carper. What is his name?
    Ms. Macfarlane. Hugh Gusterson.
    Senator Carper. Mr. Gusterson, thank you very much for 
sharing your wife, a remarkable woman, with our Country.
    I think you said in your statement you have been the 
Chairman for about 10 months now and I just want to ask you to 
highlight for us, if you will, over that period of time how the 
NRC has strengthened the safety culture at a number of nuclear 
power plants. Just give us some examples of how you think you 
strengthened the safety culture at those plants.
    Ms. Macfarlane. Sure. We oversee the safety culture at our 
nuclear power plants in part through our reactor oversight 
process and we evaluate what goes on at the plants and ensure 
that there is an operating safety culture, that there are not 
any chilling effects, that employees feel free that they can 
bring up problems and will not be discriminated against. And 
these are issues that we look for on a day-to-day basis at the 
reactors.
    Senator Carper. All right. Are there some other things that 
we ought to be doing or that we could be doing? Not just you as 
the Chair, not just the NRC Commissioners, not just the folks 
who work with you, but including us here in the Congress, 
especially on this Committee. What are some things that we 
might be doing to better ensure that our nuclear plants are 
safe that you are aware of or mindful of at this time?
    Ms. Macfarlane. I think one of the most important things 
that certainly we at the NRC can do and I think the industry 
can do and you and Congress, to the degree that you can and it 
would be helpful, is to work on communication.
    I think communication is extremely important in the issue 
of regulating nuclear facilities. We need to be clear about 
what everybody's role is and we need to be clear about the 
issues and we need to engage the public and all concerned folks 
on these issues and make sure that each of us understands the 
concerns of each other.
    Senator Carper. Did you tell us in your statement that you 
are looking forward to going and visiting the construction 
sites for the four new nuclear plants down in, what is it, 
South Carolina and Georgia?
    Ms. Macfarlane. In Georgia, yes. I will be there the first 
week of June.
    Senator Carper. Just give us a brief, just a brief update 
in terms of how those projects are coming along in terms of 
expected schedule, cost, problems that they are facing, 
successes that they have achieved, please.
    Ms. Macfarlane. Yes, this has been a good process. There 
are four reactors under construction, two in South Carolina, 
two in Georgia. In March, both sites poured their nuclear 
concrete and the South Carolina site has laid the basket to 
receive the containment vessel. So, they are progressing 
nicely.
    There have been some issues where the plant had to submit a 
license amendment request. We are following a new process in 
licensing and constructing these plants now and that is in 
response to industry request. We now have a combined operating 
license.
    So, the licensee will submit a design to the NRC and we 
hold them to building that design. That is what we have 
evaluated, that is what they are going to build because then 
they will be able to operate once it is constructed.
    And there were some issues with the construction not being 
built to the design and we have dealt with them. We are moving 
forward. We are examining ``lessons learned'' ourselves at our 
agency. So, I think it is a success story overall.
    Senator Carper. Good. Thanks. One last question. As you 
know, we have already referred to here to extreme weather 
events such as the horrific tornado in Oklahoma earlier this 
week and Super Storm Sandy which visited my part of the Country 
which seem to be occurring with greater frequency these days. 
Folks tell us extreme weather events are expected to remain and 
maybe even get worse as we move into the future.
    Could you talk for a moment about what the NRC has done or 
is doing to better ensure that our nuclear facilities are safe 
as we face these extreme weather episodes and what more, if 
anything, can or should be done or is being done?
    Ms. Macfarlane. I appreciate that question. As an earth 
scientist, I appreciate the question. And I have a particular 
view as an earth scientist.
    I would not call these events extreme. I would call them 
normal. They may be extreme because we have very limited 
experience on this earth with them, but they are normal events. 
And being normal events means we need to, at the NRC, make sure 
that we are accounting for them and that our facilities are 
prepared to deal with them.
    And so, we are in the process of evaluating and updating 
and requesting that our facilities update their evaluations. 
Right now, we are in the process of requesting that our 
facilities update their evaluations of their seismic hazards 
and the flooding hazards and, as we work through our Fukushima 
activities, we will move on to examining other external events 
such as missiles generated by tornados and hurricanes and that 
kind of thing.
    Senator Carper. OK. Thanks very much. Thanks for your 
responses to our questions. Thanks for being here. Thanks for 
your service and for your willingness to serve further.
    Ms. Macfarlane. Thanks.
    Senator Boxer. Thank you, Senator. Senator Fischer, you 
have questions, and then we will have Senator Boozman conclude 
with his questions at that time.
    Senator Fischer. Thank you, Madam Chairman.
    As you know, Nebraska has uranium. And in the regulation of 
facilities that recover uranium using in situ recovery 
technology, the NRC has asserted regulatory jurisdiction over 
all aspects of their operations in a Commission vote in 1999, 
including activities that are regulated by our State, the State 
of Nebraska, and other States under their primacy authority 
granted by the Safe Drinking Water Act.
    To date, this has created a duplicative regulatory 
environment for our State and for also the licensee. It delays 
licensing, complicating enforcement and extending 
decommissioning timelines. In other areas where there is a 
duplicative regulation of activities by State and Federal 
agencies, there are Memorandums of Understanding where there is 
clarification of regulatory jurisdiction. But that is not the 
case here with this uranium recovery.
    Is this regime sustainable and would the Commission be 
willing to provide some clarity regarding the State and Federal 
jurisdiction so we know how to handle these situations in the 
future to make it easier?
    Ms. Macfarlane. Certainly, Senator. The way that we handle 
State versus Federal requirements is that some States are what 
we call Agreement States and those States are given the 
opportunity to oversee nuclear issues and we provide them, we 
provide oversight of the Agreement States. And then those 
States that are not Agreement States, we provide direct 
oversight, like Wyoming, for instance. So, we are the ones who 
deal with the uranium recovery applications directly.
    Senator Fischer. So, where is Nebraska on that?
    Ms. Macfarlane. Nebraska is, I believe, not an Agreement 
State. So, we are ensuring that the licenses and applications, 
we oversee them ourselves.
    Senator Fischer. So, even though we have regulations in 
Nebraska and the licensee has to go through that process, you 
are saying that because we are not an Agreement State they also 
have to go through the Federal process?
    Ms. Macfarlane. Through the Federal process, yes.
    Senator Fischer. How does a State become an Agreement 
State?
    Ms. Macfarlane. There is a set process to apply and become 
that. I know Wyoming is in the process of considering becoming 
an Agreement State. It takes 3 or 4 years to get through that 
process.
    Senator Fischer. Is it your Commission, then, that would 
grant that?
    Ms. Macfarlane. Yes.
    Senator Fischer. Is it an easy process to go through?
    Ms. Macfarlane. I am not sure what the definition of easy 
is.
    [Laughter.]
    Senator Fischer. If it takes 3 or 4 years in this 
regulatory environment, that sounds pretty easy.
    Ms. Macfarlane. Then it is easy.
    [Laughter.]
    Senator Fischer. A lot of things take a lot longer. What is 
involved in that, do you know?
    Ms. Macfarlane. We have to be assured that the State 
understands our oversight processes, our regulations, that they 
have adequate staffing to ensure that the materials licensees, 
etcetera, are going to be overseen on a regular basis, and that 
kind of thing.
    Senator Fischer. OK. Thank you for that information.
    Your staff has stated publicly that resources are extremely 
limited for the licensing of uranium recovery facilities. Yet, 
90 percent, I believe, of your money comes from fee recovery 
and that is how your agency is funded. So, how can we help to 
advance that process through your agency? I guess I am 
questioning if you really have limited resources, since you 
have that 90 percent fee recovery.
    Ms. Macfarlane. In terms of uranium recovery?
    Senator Fischer. Yes.
    Ms. Macfarlane. We do have resources to do uranium recovery 
right now. We can process between 8 to 10 applications at a 
time. We have received 14 applications since 2007 for new 
licenses and four for license renewals and we have processed 
seven to completion and three are halfway complete.
    And, you know, it depends on what the future brings. Right 
now we have been told to expect another 15 license applications 
by 2015 or so. And then there may be some kind of delay. But it 
all largely depends on what we get.
    Senator Fischer. And you know we have a facility in 
Nebraska that it has taken some time to go through the process. 
So, hopefully, that will move along.
    Ms. Macfarlane. Right.
    Senator Fischer. OK. Thank you very much, Doctor.
    Ms. Macfarlane. Thank you.
    Senator Boxer. Senator Boozman.
    Senator Boozman. Thank you, Dr. Macfarlane, thank you being 
here. We do appreciate your willingness to serve and this is 
such an important thing that you are in charge of and working 
hard to do a good job.
    You talked about the importance of using qualitative 
analysis versus quantitative analysis, not just, you know, 
quantitative analysis but the other also when you analyze 
issues. This has been called an extraordinary step in regard to 
the NRC guidance documents urging the use of qualitative 
analysis only after the quantitative analysis has been 
exhausted.
    And I guess, you know, and you can argue with this, but to 
me, I think what you are saying is facts versus opinion and 
common sense, to some degree. In fact, I would characterize 
that. But again, my concern is that you seem to be breaking 
from the NRC precedents of exploring and exhausting the 
quantitative analysis first before you get into the other. I am 
sorry, I am confusing myself. Again, common sense versus the 
facts, common sense versus an opinion, versus the facts.
    Ms. Macfarlane. The Commission has made a number of 
decisions using both quantitative and qualitative analysis in 
cost benefit analysis, what we call back fit analysis. And I 
think you may be referencing, in particular, the recent 
Commission decision on filtered vents and that decision was 
actually a two-part decision.
    The first part of that decision was, and it was a unanimous 
decision, the Commission voted unanimously to move forward to 
make sure that containment vents are hardened and made severe 
accident-capable. And that analysis that was done for that 
decision, included both a quantitative and a qualitative 
portion. So, the entire Commission supported the qualitative 
analysis of the hardened vents.
    Senator Boozman. Again, I guess we agree then, you agree 
with the precedents of using primarily, as you can, you exhaust 
the quantitative analysis, the facts, you know, the data that 
you can drive, before you get into the other. The problem is, 
and you are a scientist and you know, you understand this very 
well, if you do not do that, then you can essentially do 
whatever you want to do.
    Ms. Macfarlane. I will just note that this was not a 
precedent-setting decision. There have been a number of 
decisions in the past at the Agency that have relied on 
qualitative analysis. And I would happy to get those, to get a 
list of those together for you for the record.
    Senator Boozman. Right. And again, I am not arguing with 
you. But like I say, I mean, you agree that you would exhaust 
the facts and then get into the other.
    Ms. Macfarlane. In general, that is the methodology that 
the Agency uses.
    Senator Boozman. Yes, which is the scientific methodology 
which we all use as researchers and things like that.
    Let me ask you, just very quickly. You came into the 
Agency, or you took control at a very interesting time. I think 
we would all agree that it had significant problems and this 
and that and we were thrust into a very difficult situation. 
Tell me what you have learned from that. Tell me some of the 
changes you have made to try and get things back on the right 
track.
    Ms. Macfarlane. Well, it has been an interesting experience 
and it has been an excellent experience, frankly. From the 
first day I arrived, I started meeting with my fellow 
Commissioners on a regular basis and I made sure that I do, I 
try to meet weekly with them if they are in town, if we are all 
in town.
    Not only that, but my staff meets, all of our staffs meet 
on a daily basis. And I have made it a priority for my staff to 
make sure that they work well with their colleagues on the 18th 
floor. They are all above us on the 18th floor. We are on the 
17th floor. So, it has been very important to me to make sure 
that we establish a good relationship, an open relationship, a 
transparent relationship. We have made sure that we share all 
documents with them in a timely manner, and we follow 
Commission procedures.
    But then there is also the staff piece and it has been a 
wonderful experience for me to get to know the staff at the 
NRC. They are a dedicated, extremely capable group of folks all 
the way down to the resident inspectors at the reactor sites. 
Those are fantastic people dedicated to the mission of ensuring 
public health and safety. And I have enjoyed talking with the 
staff and having detailed technical discussions, that is my 
favorite thing to do, and establishing a good, open working 
environment.
    Senator Boozman. Good. Thank you very much and again, we 
thank you for your efforts.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    So, I have just two quick questions and then I am going to 
turn to Senator Gillibrand. We have a vote coming up shortly.
    I wanted to ask you because, I guess that Senator Boozman 
did not agree with the Commission decision to require hardening 
of vents. Is that what I am gathering?
    Senator Boozman. No, no, not at all. I think what I was 
trying to do was just make sure, especially now, having ability 
to make sure that we have processes in place where we are using 
facts versus opinion, using the scientific data. We can come to 
the right conclusion in a lot of different ways. But again, 
just reinforcing how important it is that we have reproducible 
things that we can have confidence in the decision.
    Senator Boxer. OK, well let me just back that up. I mean, 
we need to go with the science and safety science. But the 
vents hardening is pretty important and frankly, the filtering 
of these vents is important because you keep out the radiation 
with the filter. But I do agree, you want to have the experts 
tell us what we need to do and we have to learn from things 
like Fukushima of what failed. And I am dealing with a failed 
plant right now and I can tell you, it is not a pleasant 
experience.
    And the other thing I want to do is say that I had a 
meeting with the California Energy Commission yesterday and 
happily they said they have a plan in place. I want to tell you 
this because this is not really what would motivate you, but 
they have a plan in place to get us through the summer. San 
Onofre provides about 8 percent of the State's energy and they 
have made a summer assessment they feel, they say operating 
electricity margin is expected to be above the level at which 
service interruptions could occur.
    So, I really want to praise them. They are really, they are 
good at their job there. Twenty-five percent of the replacement 
energy is from solar and wind and the rest has to do with 
restarting up other plants.
    So, I want to just put on the record, let us not have scare 
tactics to rush to open a plant. We are going to be OK. And I 
want to praise Governor Brown and his team for just saying 
look, we are not in this fight, we do not know whether the 
plant is going to open or not, but we are going to make sure 
that our people have the electricity. So, that is good news.
    If we could then go to Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman, for 
holding this essential hearing. It is so important.
    The Government Accountability Office issued a report in 
March, as you know, that questioned the basis for assumptions 
about how many people would evacuate should an incident occur 
at Indian Point. Specific questions were raised about the 
residents of the shadow zone defined as outside the 10-mile 
radius.
    According to the GAO, neither the Nuclear Regulatory 
Commission nor the Federal Emergency Management Agency has ever 
examined public awareness outside the 10-mile emergency zone. 
We are talking about New York City, 8 million people, 
Westchester, surrounding areas.
    I wrote a letter to you May 6, I think you have gotten it, 
to Administrator Fugate of FEMA and Chairwoman Macfarlane, to 
actually take a review of this and look at independent data 
collection agencies to collect the information and data to 
better determine the potential reaction of residents in the 
shadow zone should an incident occur.
    So, my fundamental question is, if you are reconfirmed, can 
you assure me that you will reassess the emergency planning and 
evacuation system as a priority, particularly in light of the 
GAO's report questioning the assumptions?
    Ms. Macfarlane. Thank you, Senator, for the question and 
yes, I think I received the letter yesterday or the day before. 
So, we are considering it at the Commission right now.
    Let me assure you, to begin with, that we have been aware 
of the issue of shadow zone evacuations and at the NRC we have 
staff who have taken into account data from actual evacuations, 
more than 60 actual large-scale evacuations, in the United 
States in the past, I do not know, some decades, and looked at 
the experience there. And so we feed that information into our 
own analyses.
    But, let me assure you also that, as part of our Fukushima 
follow-on plans, we are going to examine the 10-mile emergency 
planning zone as part of that and we will be looking into this 
situation.
    Senator Gillibrand. A related question was, after Super 
Storm Sandy, obviously Westchester was largely shut down. There 
were very few, there was no public transportation, most 
emergency evacuation, the main evacuation routes were closed, 
almost all roads in the impacted counties were closed, and many 
of the communications systems were not functioning. The 
Governor and surrounding counties all declared states of 
emergency and urged people not to leave their homes.
    I understand that the NRC determined that the weather 
situation did not meet your criteria for shutting down the 
plant. But one consideration that I do not believe you made is 
whether the emergency plan could actually be implemented if 
there is a problem.
    So, I would like you to re-look at the standard because, 
just because Super Storm Sandy was not a significant enough 
hurricane to shut down your operations, the reality is if there 
was a problem, you would not be able to evacuate even the 10-
mile radius with zero transportation infrastructure, next to 
zero communications ability. You would not be able to inform 
the community that there was a problem.
    So, I think that must be included and I want your 
commitment that you will look at that issue and give me a 
response on that topic.
    Ms. Macfarlane. We will look at that issue.
    Senator Gillibrand. Thank you, Madam Chairwoman, I 
appreciate your time.
    Senator Boxer. Thank you.
    Well, we want to thank you very, very much for being here 
today and we will have a markup soon on this nomination, get 
you to the floor and get you back to your desk. And we thank 
you very much.
    And what I would like to do is talk to you and your staff 
about some of these requests that we have made that we have not 
yet received.
    I do have to ask you a couple of questions.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees and provide information subject to appropriate and 
necessary security protection with respect to your 
responsibilities?
    Ms. Macfarlane. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely fashion?
    Ms. Macfarlane. Yes.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Ms. Macfarlane. No.
    Senator Boxer. OK. So, I am just saying, noting that you 
have said yes, I have asked you for documents. You just said 
you would certainly turn them over. I am going to be specific 
with you in short order. So, thank you very much. We will come 
over to you in just a moment.
    Thank you, colleagues.
    [Whereupon, at 10:27 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

                Statement of Hon. Frank R. Lautenberg, 
               U.S. Senator from the State of New Jersey

    Madam Chairman, thank you for scheduling this hearing to 
consider the re-nomination of Dr. Allison Macfarlane to be 
Chairwoman of the Nuclear Regulatory Commission (NRC).
    Nuclear energy has been critical to meeting our nation's 
energy needs. It is an emissions-free energy source that 
provides one-fifth of America's electricity. In my State of New 
Jersey, our four nuclear power reactors provide the State with 
more than half its electricity.
    But--as we saw in Japan more than 2 years ago--we need to 
ensure the safe operation of these facilities. In addition to 
operating plants safely, the United States needs to have an 
effective policy for disposing of and storing spent nuclear 
fuel. Right now, most nuclear power plants store more than 
1,000 tons of nuclear waste in spent fuel pools onsite. This is 
not a sustainable solution.
    In New Jersey, nuclear waste is stored onsite at our four 
nuclear reactors. Some of it is in dry cask storage, but most 
is in spent fuel pools, which rely on a steady supply of water 
and electricity. Superstorm Sandy showed how important it is to 
ensure nuclear facilities are safe and resilient.
    In Japan, when the tsunami knocked the power out, we saw 
rescue workers desperately spraying water from fire hoses into 
the spent fuel pools. More than 2 years later, there are still 
serious concerns about the safety of spent fuel at Fukushima.
    One thing is clear: we must find better and safer ways to 
store nuclear waste to ensure that a disaster like the one that 
took place in Japan never happens here. That means finding more 
secure ways to store fuel onsite, finding agreeable places to 
store national spent fuel, and making sure that these sites 
have long-term viability.
    We've now heard from the President's Blue Ribbon 
Commission, which made a number of recommendations that could 
provide a path forward. As a former Commission member, I look 
forward to hearing from Dr. Macfarlane on how she plans to 
approach the Commission's proposals and fulfill its mandate.
    If re-confirmed, she will hear from industry interests that 
may oppose strong safety regulations. But do not forget--
companies that are accountable to shareholders often have to 
focus on short-term costs and quarterly profits. In contrast, 
the NRC must be accountable to the people, and it must stay 
focused on ensuring the safety of this generation and the next.
    So I expect Dr. Macfarlane, if re-confirmed, to always be 
on the side of safety. Relaxing regulations could harm the 
public and would do the industry no favors.
    Nuclear energy has been critical to our nation's energy 
needs in the past. We must take the necessary precautions now 
in order for that to continue in the future.

                 Statement of Hon. Kirsten Gillibrand, 
                U.S. Senator from the State of New York

    Madam Chair, I am pleased to join you and my colleagues on 
this committee to examine the work Ms. Macfarlane has done on 
the Nuclear Regulatory Commission. Considering nuclear power's 
sizable footprint in New York State, I am very interested in 
Ms. Macfarlane's perspective on steps that can be taken to 
ensure the safety and transparency of this industry in the 
years to come.
    Some topics I hope will be covered during this hearing 
include addressing what has seemed, at times, like the modest 
pace for the implementation of the post-Fukashima task force 
recommendations.
    Emergency planning like this is incredibly important, 
especially as we continue to see the damage that natural 
disasters can wreak on our communities.
    In the same vein, I hope we can work together to address 
concerns raised about the ability of local infrastructure to 
support implementation of the emergency planning, such as in 
the wake of Superstorm Sandy. I would also like to ensure that 
it will be a priority of Ms. Macfarlane's to address concerns 
raised by the Government Accountability Office (GAO) regarding 
emergency planning zones around plants, and the importance of 
understanding ``shadow evacuation zones.''
    Finally, as Indian Point in New York is up for licensing 
renewal this year, I would like you to address the seemingly 
novel approach the NRC is taking with its ``timely renewal 
provision.'' Specifically, I would like to know how using this 
provision will trigger other time limits, restrictions or 
regulatory compliance requirements while the plants are in this 
status. And, whether the NRC is evaluating the criteria used 
for relicensing, including the length of license duration.
    Madam Chair, I know Ms. Macfarlane has spent a significant 
amount of time doing the hard, boots on the ground work. During 
her recent visit to New York, she met with many local elected 
officials, business leaders, and environmental organizations, 
providing the opportunity to speak directly to the Chairwoman. 
I applaud this effort, and I look forward to her continued work 
on the NRC's commitment to transparency and accountability.
    Thank you.

                                 <all>
</pre></body></html>
